21-304
THE SUPREME COURT OF THE UNITED STATES
On Petition for Writ of Cerrtiorari to
South Carolina Supreme Court
Appellate Case No. 2020-000919

Sharon Brown,

Petitioner,
vs.
Respondent.

Cherokee County School District,
PETITION FOR A WRIT OF CERTIORARI

Sharon Brown
216 Ardmore Road
Spartanburg, S.C. 29306
(864)253-9975
sharon.brown2 l@yahoo.com
PRO SE, PETITIONER
Counsel of Record:
ANDREA E. WHITE (S.C. Bar #11891)
White & Story, LLC
P.O. Box 7036
Columbia, S.C. 29202
(803)814-0993
(803)814-1183 Fax
awhite@sodacitylaw.com
ATTORNEY FOR RESPONDENT

Received
AUG 3 0 2021

g<

l

QUESTIONS PRESENTED FOR REVIEW:
1. WHETHER PETITIONER’S DUE PROCESS RIGHTS AND EQUAL
PROTECTION RIGHTS VIOLATED UNDER 42 USCA § 1983 WHEN THE
CHEROKEE COUNTY SCHOOL DISTRICT BOARD OF TRUSTESS FAILED TO
FILE A RECORD CERTIIFED BY THE CHIEF OFFICIAL OF THE SCHOOL
BOARD OF TRUSTEES WITHIN 30 DAYS OF APPELLANT FILING AN APPEAL
IN THE CIRCUIT COURT? FAILURE TO FILE A COMPLETE RECORD SIGNED
BY AN OFFICIAL OF THE AGENCY RESULTS IN THE TEACHER
TERMINATION BEING NULL AND VOID.
A. WHETHER CONTINUING CONTRACT TEACHER BROWN’S DUE
PROCESS AND EQUAL PROTECTION RIGTS VIOLATED UNDER 42 USCA §
1983 WHEN S.C. CODE OF LAWS, TITLE 1 CHAPTER 23 SECTION 1-23-320 (G)
WAS IGNORED? S.C. CODE OF LAWS, TITLE 1 CHAPTER 23 SECTION 1-23320 (G) IS UPHELD AND HONORED FOR OTHER OCCUPATIONS IN THE
STATE OF SOUTH CAROLINA. WAS BROWN DISCRIMINATED AGAINST BY
RESPONDENT DISTRICT AND THE SOUTH CAROLINA COURTS BECAUSE
OF OCCUPATION AND RACE?
B. WAS THE INDIANA SUPREME COURT CORRECT WHEN IT HELD IN
AN ORDER FILED ON NOVEMEBER 13, 2014, THAT A PETITONER SEEKING
JUDICIAL REVIEW OF AN AGENCY ACTION MUST FILE WITH THE TRIAL
COURT THE AGENCY RECORD AS DEFIND BY THE ADMINISTRATIVE
ORDERS AND PROCEDURES ACT?
C. WAS PETITONER, BROWN, DUE PROCESS AND EQUAL
PROTECTIONS RIGHTS VIOLATED UNDER 42 USCA § 1983 BY THE STATE
COURTS OF SOUTH CAROLINA WHEN SOUTH CAROLINA COURT OF
APPEALS ALLOWED RESPONDENT DISTRICT TO FILE A TEACHER
DISMISSAL TRANSCRIPT YEARS LATER AT THE COURT OF APPEALS? THE
COURT OF APPEALS AND THE SUPREME COURT OF SOUTH CAROLINA
WERE AWARE THAT THE CLERKS OFFICE FOR CHEROKEE COUNTY
COURT OF COMMON PLEAS CONFIRMED THAT RESPONDENT DISTRICT
NEVER FILED AN ADMINISTRATIVE RECORD AT THE LOWER COURT
(COURT OF COMMON PLEAS).
D. WHETHER THE SUPREME COURT OF SOUTH CAROLINA, THE
SOUTH CAROLINA COURT OF APPEALS, AND THE CIRCUIT COURT
(COURT OF COMMON PLEAS) COULD LEGALLY ENGAGE IN
2

"SUBSTANTIAL INQUIRY1 INTO WHETHER THE RESPONDENT DISTRICT
HAD SUBSTANTIAL EVIDENCE TO TERMINATE BROWN AS A TEACHER,
GIVEN THAT THE RESPONDENT DISTRICT DID NOT SUBMIT TO THE
CIRCUIT COURT CLERK OF COURT'S OFFICE A COMPLETE CERTIFIED
RECORD FROM THE SCHOOL DISTRICT SIGNED BY AN OFFICIAL AS
MANDATED BY RULE 75 SCRCP, S.C. CODE §59-25-480 OF SOUTH
CAROLINA TEACHER EMPLOYMENT AND DISMISSAL LAW, AND S.C. CODE
OF LAWS TITLE 1 CHAPTER 23 SECTION l-23-320(G)?

I

E.. WHETHER THE SUPREME COURT OF SOUTH CAROLINA AND
SOUTH CAROLINA COURT OF APPEALS SHOULD HAVE RULED THAT THE
FILING OF A CERTIFIED RECORD SIGNED BY AN OFFICIAL OF THE
AGENCY (SCHOOL DISTRICT) IS A PREREQUSITE TO THE PURSUIT OF A
TEACHERS REQUEST FOR JUDICIAL REVIEW OF HER TERMINATION BY
THE CIRCUIT COURT?
F. WHETHER ALL LEVELS OF STATE COURT IN SOUTH CAROLINA
LACK THE AUTHORITY TO AUTHORIZE AN EXTENSION TO FILE AN
AGENCY RECORD CERTIFIED BY AN AGENCY OFFICIAL WHEN THE
AGENCY (RESPONDENT DISTRICT) DID NOT REQUEST AN EXTENSION
BEFORE THE 30 DAY PERIOD TO FILE RECORD EXPIRED?
G. DID THE SUPREME COURT OF SOUTH CAROLINA AND THE
SOUTH CAROLINA COURT OF APPEALS ERR IN NOT RULING THAT AN
AGENCY'S (SHOOL DISTRICT’S) FAILURE TO FILE A COMPLETE AND
OFFICIAL CERTIFIED TRANSCRIPT OF RECORD IN A TEACHER
TERMINATION APPEAL IS TANTAMOUNT TO NO TRANSCRIPT AT ALL
HAVING BEEN FILED BY THE SCHOOL DISTRICT?

3

i

TABLE OF CONTENTS
Questions Presented

2-3

Table of
Contents

4

Table of Authorities

5-6

Petition for Writ of Certiorari.

7

Opinions Below

8

Jurisdiction

9

Constitutional or Legal Authority

10-11

Statement of Case

12-13

Statement of Facts

13-16

Reasons for Granting the
Writ....................................

15-29

Conclusion.

30

APPENDIX: Table of Contents..................................................................................... 31
APPENDIX A: SC Court of Appeals Opinion filed January 15, 2020
APPENDIX B: Appellant's Petiton for Rehearing with Suggestion for En
Banc, Filed by S.C. Ct. of Appeals on Jan. 28, 2020
APPENDIX C: South Carolina Court of Appeals Ordr, filed May 22, 2020
APPENDIX D: Appellant's Writ of Certiorari, filed June 23, 2020 in the
Supreme Ct. of South Carolina
APPENDIX E: Petitioner's reply to Respondent's Return to Petitioner's
Petition for a Writ of Certiorari, Filed on Aug. 3, 2020
APPENDIX F: The Supreme Court of South Carolina Order filed on May 28,
2021
APPENDIX G: Letter from Respondent to SC Court of Appeals filed by Ct on
Nov. 27, 2017
4

TABLE OF AUTHORITIES
Page(s)

Cases:
Boag vs. Mac Dougall,
454 U.S. 364, 70 L. Ed. 2d 551, 102 S. Ct. 700 (1982)

7

Brown vs. William B. James. Superintendent for Cherokee County School
15, 19, 20.23
District,389 S.C. 41, 697 S.E.2d 604 (Ct. App.)
Cabol vs. Town of Younsville.
106 F.32d 101, 107 (5th Cir. 1997)

21

Fernandez vs. U.S.,
941 F. 2d 1488 (11th Cir. 1991)

7

Green vs. Branson.
108 F. 3d 1296 (10th Cir. 1997)

7

Haines vs. Kemer,
404 U.S. 519, 30 L. Ed 652, 92 S.Ct. 594 (1972)

7

McGowan vs. Maryland.
366 U.S. 420, 425, 81 S.Ct. 1101

11

McWhirter vs. Cherokee County School District 1.
274 S.C. 66, 261 S.E. 2d 157 (1979)

15,19

Mullane vs. Cen. Hanover Bank & Trust Co.,
339 U.S. 306, 313, 70 S.Ct. 652 94 L.Ed. 865 (1950)

21

Simmons vs. Abruzzo.
49 F. 3d 83 (2d Cir. 1995)

7

Teaching Our Posterity Success. Inc., vs. Indiana
Department of Education and Indiana State Board
of Education. Opinion No. 49505-1411-PL-700, filed Nov.13, 2013
Whiting v. Univ. of S. Miss.,
451 F. 3d 339 (5th Cir. 1997)

10, 16, 17

27

5

i
i
i

Statutes:
S.C. Code Ann
§ 59-25-410....

29

S.C. Code Ann
§ 59-25-480.....

8,13.14.16.17,18,21,22,23,24,25,26,27,28,29.

S.C. Code of Laws Title 1 Chapter 23
Section 1-23-320 (G)............................

10,15,16,17,29

APA (Administrative Procedure Act for SC)
§ 1-23-380......................................................
The Fourteen Amendment
of the United States Constitution

22

9,10
9,10,15,17

42 USC§ 1983

Rule(s):
Rule 75, SCRCP

13,14,16,18,20,21,22,23,24,25,26,27,28,29

6

PETITON FOR WRIT OF CERTIORARI
Now comes Pro Se Petitioner, Sharon Brown (Brown), requesting
that this court issue a Writ of Certiorari to review the orders of The South Carolina
Supreme Court, The South Carolina Court of Appeals, and the Cherokee County
Court of Common Pleas.
It is worth nothing that Pro se Litigant’s pleadings are to be
construed liberally and held to less stringent standards than Formal Pleadings
drafted by attorneys. If the Court can reasonably read Pleadings to state a valid
claim on which litigation could prevail, it should do so despite failure to cite proper
legal authority, confusion, legal theories, poor syntax, poor sentence construction,
or litigant's unfamiliarity with Pleading requirements. See Boag v. MacDougall, 454
U.S. 364, 70 L. Ed. 2d 551, 102 S. Ct. 700 (1982). See also Haines v. Kemer. 404 U.S.
519, 30 L. Ed. 2d 652, 92 S. Ct. 594 (1972);See Green v. Branson. 108 F. 3d 1296
(10th Cir. 1997); Simmons vs. Abruzzo. 49 F. 3d 83 (2d Cir. 1995); Fernandez v.
U.S.. 941 F.2d 1488 (11th Cir. 1991).

7

I

OPINIONS BELOW
On January 15, 2020, the South Carolina Court of Appeals issued
an order affirming Cherokee County Court of Common Pleas decision that
substantial evidence existed for Brown's termination of her continuing contract with
Cherokee County School District (the District) and that the district filed a
transcript of the School Board teacher termination hearing with the circuit as
required by section 59-25-480. (Appendix A). The Appellate Case No. with the South
Carolina Court of appeals is the following: 2017-001466. The case caption is Sharon
Brown, Appellant v. Cherokee County School District, Respondent.
On January 28, 2020, Petitioner filed a Petition for Rehearing with
Suggestion for En Banc with the South Carolina Court of Appeals. (APPENDIX B).
On May 22, 2020, South Carolina Court of Appeals denied Petitioner's petition for a
rehearing. (APPENDIX C).
On June 23, 2020, Brown’s Petition for a Writ of Certiorari was
filed in the Supreme Court of South Carolina. (APPENDIX D).On August 3, 2020
the Supreme Court of South Carolina filed Brown’s document titled Petitioner's
Reply to Respondents Return For a Writ of Certiorari.(APPENDIX E). On May 28,
2021, the South Carolina Supreme Court issued an order denying Brown's Petition
for a Writ of Certiorari. (APPENDIX F). The Appellate case no. with the South
Carolina Supreme Court is 2020-000919. The case caption is Sharon Brown,
Petitioner v. Cherokee County School District, Respondent.

8

JURISDICTION
The South Carolina Court of Appeals issued an order on May 28, 2021,
denying Brown’s Petition for a Writ of Certiorari. This Petition for Writ of
Certiorari is timely filed and the jurisdiction of the Court is invoked pursuant to 42
USC § 1983, The Fourteenth Amendment of the USA Constitution (Section 1), and
Supreme Court Rules 10(c), (b).

9

CONSTITUTIONAL OR LEGAL AUTHORITY
1. The Fourteenth Amendment provides in pertinent part, "nor shall any
state deprive any person of life, liberty or property without Due Process of law, nor
deny any person within its jurisdiction the equal protection of the law."
2. Indiana Supreme Court held in an order filed on November 13, 2014 that a
Petitioner seeking judicial review of an agency action must file with the trial court
the agency record as defined by the administrative orders and procedure act. See
Teaching Our Posterity Success. Inc, vs. Indiana Department of Education and
Indiana State Board of Education (Case No. 49505-1411-PL-700), filed Nov. 13,
2014. In the case at hand, Respondent District failed to file the administrative
record as listed in the administrative procedure act for South Carolina. See S.C.
Code of Laws Title 1 Chapter 23 Section 1-23-320 (Xj). which states that the record in a
contested case must include the following:
(1.) all pleadings, motions, intermediate rulings, and depositions;
(2.) evidence received or considered;
(3.) a statement of matters officially noticed;
(4.) questions and offers of proof, objections, and rulings on the contested case;
(5.) proposed findings and exceptions
(6.) any decision , opinion, or report by the officer presiding at the hearing
3. 42 USC § 1983 states in pertinent part, "Every person who under color of any statute,
ordinance, regulation, custom, or usage of any State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen of the United States or other person within the
jurisdiction thereof to the deprivation of any rights, privileges, or immunities secured by the
10

Constitution and laws, shall be liable to the party injured in an action at law, suit in equity, or
other proper proceedings for redress."
4. The equal protection jurisprudence has often been concerned with classifications that
"affect one group of citizens differently than others." In the case at hand Brown was treated
differently from other similarly situated state employees and citizens, by Respondent District and
some of South Carolina's State Courts, when filing an appeal from an agency. Brown was
discriminated against, upon belief, based on Brown's occupation (as a teacher) and race (being
black). See McGowan v. Maryland. 366 U.S. 420, 425, 81 S.Ct. llOl.The Respondent district
did not file a complete certified record. According to Cherokee County Court of Common Pleas'
Clerk of Court Office, the respondent District did not file a transcript record at all.

11

STATEMENT OF THE CASE
Sharon Brown, a school teacher, petitioner and appellant petitions this court
for a Writ of Certiorari on the above-entitled matter after an order was entered on
May 28, 2021, that denied Brown's Petition for a Writ of Certiorari with the South
Carolina Supreme Court. An unpublished opinion dated January 15, 2020 was
issued by the South Carolina Court of Appeals and an order denying appellant's
petition for rehearing was issued by the South Carolina Court of Appeals on May
22, 2020. The South Carolina Court of Appeals affirmed the decision of the circuit
court judge who upheld the decision of the Cherokee County School Board Trustees
to terminate the continuing teaching employment contract of Brown.
In no way should this Petition be construed as an attack on the South
Carolina Supreme Court Justices, the Circuit Court Judge or the Court of Appeals
Panel.
On November 22. 2017. the South Carolina Court of Appeals filed
Respondent's "certified original Transcript Record" of the teacher dismissal
hearing. (Exhibit O'). This document was not filed in the lower court (Cherokee
County Court of Common Pleas) according to the Cherokee County Clerk of Court's
office. The Respondent, to this very day, has never filed a complete certified record
with any of the state Courts.
Federal questions were raised at the South Carolina Court of Appeal after
Brown inquired about the record in the lower court (Cherokee County Court of

12

Common Pleas). Brown was at the South Carolina Court of Appeals level when she
found out that the school district had not filed a complete record with the lower
court. Therefore Brown requested that the Justices of the South Carolina Court of
Appeals reinstate her to her teaching position because no record was filed in the
Court of Common Pleas. There was no legal record for the South Carolina Court of
Appeals to review because there was no record filed. Further, even if the
Respondent contends that a record was filed, it would have been uncertified and
incomplete. Resulting in due process and equal protection violations committed
against Brown. Additionally, Brown raised the due process and equal protection
issues at the Supreme Court of South Carolina (Appendix D and Appendix E)

STATMEMENT OF FACTS
Nevertheless, from the record below it is clear that the Respondent District
failed to do the following:
1. The District never presented a certified record from the School District
signed by an agency official as mandated by Rule 75 SCRCP or S.C. Code
59-25-480, (Appendix F)
2. The transcript of the hearing below was certified by the Court reporter
and not by an agency official; (Appendix F)
3. A certified order was not filed with the Clerk of Court’s Office within 30
days of the filing of an appeal by Brown with the Circuit Court; As a
matter of fact the Cherokee County Clerk of Court said it never received a
transcript of Brown’s teacher termination.

13

4. The vote of the Board of Trustees ratifying Brown’s termination was not
certified within thirty days to the Clerk of Court of Cherokee County as
required by SCRCP 75 and S.C. Code 59-25-480.
The record reflects the following:
1.

Brown files notice of appeal with circuit court and district.

2.

District has 30 days to have an official of the District sign a certified
transcript of record below. Here the District alleges to only have filed
the court reporter certified Transcript of the Teacher Dismissal
Hearing.

3.

District transmitted this non-agency official Certified Transcript to the
Cherokee County Clerk of Court’s Office for filing. Keep in mind that
the Cherokee County Court of Common Pleas state that they never
received a Certified Transcript. (Appendix G)/

4.

District’s transmittal must be more than the just the record of the
hearing below but must include any relevant Certified orders of the
District and the certified vote of the District Board of Trustees.

5.

Then Brown filed briefs and other exhibits with the Circuit Court.

6.

The Circuit Judge stated that he considered the following: “After
reviewing the transcript of the School board’s hearing and the exhibits
presented as a part of the hearing’s record, reviewing the pleadings
and briefs in the Clerk of Court’s file, considering the arguments
presented by counsel, and applying the required standard of review,
the School Board’s decision is affirmed.”

7.

The School Board Chair Stated: “We thank everyone for their
participation in the hearing and ask that you please excuse us now so
we can begin our deliberation. As I indicated at the beginning, the
Board will deliberate in executive session at the close of the
summation. No votes will be taken in executive session. The Board will
vote in open session and announce its decision. Within 10 days a
written decision of the Board will be issued consistent with the Board’s
announced decision, the evidence presented, and applicable law.”
Supplemental Record on Appeal page 442 lines 14-25.

14

8.

Then a decision and judgment is rendered by the Circuit Court Judge.
In McWhirter vs. Cherokee County School District No. 1, 274 S.C. 66, 261 S.E. 2d

157 (1979) South Carolina Supreme Court referred to the actions of a local school board in
language that indicates that the board is held to the standards of an "agency" as defined in the
APA. See Brown vs. William B. James. Superintendent for Cherokee County School District.
389 S.C. 41, 697 S.E.2d 604 (Ct. App. 2010).
S.C. Code of Laws Title 1 Chapter 23 Section 1-23-320 (G), states that the record in a
contested case must include the following:
(1.) all pleadings, motions, intermediate rulings, and depositions;
(2.) evidence received or considered;
(3.) a statement of matters officially noticed;
(4.) questions and offers of proof, objections, and rulings on the contested case;
(5.) proposed findings and exceptions
(6.) any decision , opinion, or report by the officer presiding at the hearing
Brown was due process and equal protection of

REASONS FOR GRANTING THE WRIT
1. PETITIONER'S DUE PROCESS RIGHTS AND EQUAL PROTECTION RIGHTS
WERE VIOLATED UNDER 42 USC§ 1983 WHEN THE CHEROKEE COUNTY
SCHOOL DISTRICT BOARD OF TRUSTESS FAILED TO FILE A RECORD
CERTIIFED BY THE CHIEF OFFICIAL OF THE SCHOOL BOARD OF
TRUSTEES WITHIN 30 DAYS OF APPELLANT FILING AN APPEAL IN THE
CIRCUIT COURT. FAILURE TO FILE A RECORD SIGNED BY AN OFFICIAL OF
THE AGENCY RESULTS IN THE TEACHER TERMINATION BEING NULL AND
VOID.

15

Rule 75 SCRCP and S.C. Code§59-25-480 statutory language present a procedural
"prerequisite to the pursuit for judicial review." It is clear from the language in Rule
75 SCRCP and S.C. Code § 59-25-480 that appellant Brown could not lawfully
obtain judicial review without the filing of a complete certified record signed by an
official of the administrative agency (Cherokee County School District).
Additionally, S.C. Code of Laws, Title 1 Chapter 23 Section 1-23-320 (G) for
administrative agencies was completely ignored.
A. PETITIONER WAS A CONTINUING CONTRACT TEACHER. BROWN’S
DUE PROCESS AND EQUAL PROTECTION RIGHTS WERE VIOLATED UNDER
42 USCA § 1983 WHEN S.C. CODE OF LAWS, TITLE 1 CHAPTER 23 SECTION
1-23-320 (G) WAS IGNORED. S.C. CODE OF LAWS, TITLE 1 CHAPTER 23
SECTION 1-23-320 (G) IS UPHELD AND HONORED BY THE RESPONDENT
DISTRICT AND SOUTH CAROLINA STATE COURTS FOR OTHER
OCCUPATIONS AND CITIZENS IN THE STATE OF SOUTH CAROLINA.
BROWN , UPON BELIEF, WAS DISCRIMINATED AGAINST BECAUSE OF
OCCUPATION AND RACE (BEING AFRICAN AMERICAN).
Brown's constitutional due process and equal protection rights were trampled
upon by the Respondent District and South Carolina Courts (specifically the
Supreme Court of South Carolina, The South Carolina Court of Appeals, and the
Cherokee County Court of Common Pleas).

B. THE INDIANA SUPREME COURT WAS CORRECT WHEN IT HELD IN
AN ORDER FILED ON NOVEMEBER 13, 2014, THAT A PETITONER SEEKING
JUDICIAL REVIEW OF AN AGENCY ACTION MUST FILE WITH THE TRIAL
COURT THE AGENCY RECORD AS DEFIND BY THE ADMINISTRATIVE
ORDERS AND PROCEDURES ACT.
South Carolina Courts should be made to follow the laws that they have on
their books for its agencies. The Supreme Court of South Carolina failed to enforce

16

the laws pertaining to judicial review of an agency's decision. Petitioner agrees
with the Indiana Supreme Court on the contention that the administrative record
with the trial court, as defined by the administrative orders and procedures act,
must be followed. See Teaching Our Posterity Success. Inc, v. Indiana Department
of Education and Indiana State Board of Education. Opinion No. 49505-1411-PL700, filed Nov. 13, 2013.
42 USC § 1983 prohibits any citizen of the United States or other person
within the jurisdiction thereof from deprivation of any rights, privileges', or
immunities secured by the Constitution and laws.
C. PETITONER, BROWN'S DUE PROCESS AND EQUAL PROTECTIONS
RIGHTS WERE VIOLATED UNDER 42 USCA § 1983 BY THE STATE COURTS
OF SOUTH CAROLINA WHEN SOUTH CAROLINA COURT OF APPEALS
ALLOWED RESPONDENT DISTRICT TO FILE A TEACHER DISMISSAL
TRANSCRIPT YEARS LATER AT THE COURT OF APPEALS. THE COURT OF
APPEALS AND THE SUPREME COURT OF SOUTH CAROLINA WERE AWARE
THAT THE CLERKS OFFICE FOR CHEROKEE COUNTY COURT OF COMMON
PLEAS CONFIRMED THAT RESPONDENT DISTRICT NEVER FILED AN
ADMINISTRATIVE RECORD AT THE LOWER COURT (COURT OF COMMON
PLEAS).
The Fourteenth Amendment (Section 1.) states in pertinent part, "nor shall
any State deprive a person of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the equal protection of the laws."
D. SOUTH CAROLINA COURT OF APPEALS AND THE CIRCUIT COURT
COULD NOT LEGALLY ENGAGE IN "SUBSTANTIAL INQUIRY" INTO
WHETHER THE RESPONDENT DISTRICT HAD SUBSTANTIAL EVIDENCE
TO TERMINATE BROWN AS A TEACHER GIVEN THAT THE RESPONDENT
DISTRICT DID NOT SUBMIT TO THE CIRCUIT COURT, CLERK OF COURT’S
OFFICE, A CERTIFIED RECORD FROM THE SCHOOL DISTRICT SIGNED BY
AN OFFICIAL AS MANDATED BY RULE 75 SCRCP, S.C. CODE §59-25-480 OF
TEACHER EMPLOYMENT AND DISMISSAL LAW, AND S.C. CODE OF LAWS
TITLE 1 CHAPTER 23 SECTION l-23-320(G).
17

Rule 75 SCRCP and S.C. Code§59-25-480 statutory language present a procedural
"prerequisite to the pursuit for judicial review." It is clear from the language in Rule
75 SCRCP and S.C. Code § 59-25-480 that appellant Brown could not lawfully
obtain judicial review without the filing of a complete certified record signed by an
official of the administrative agency (Cherokee County School District). Cherokee
County School District itself did not authenticate any record.
Here because Cherokee County School District Board of Trustees did not file
the agency certified record as anticipated by rule 75 SCRCP, S.C. Code § 59-25-480
and S.C. Code of Laws Title 1 Chapter 23 section l-23-320(G), Brown’s teacher
termination should have been ruled null and void.
E.. THE COURT OF APPEALS AND SUPREME COURT OF SOUTH
CAROLINA FAILED TO RULE THAT THE FILING OF A CERTIFIED RECORD
SIGNED BY AN OFFICIAL OF THE AGENCY (SCHOOL DISTRICT) IS A
PREREQUSITE TO THE PURSUIT OF A TEACHERS REQUEST FOR JUDICIAL
REVIEW OF HER TERMINATION BY THE CIRCUIT COURT.
Rule 75 SCRCP, S.C. Code §59-25-480, and S.C. Code of Laws Title 1 Chapter
23 section 1-23-320 (G) mandates the filing by the agency of a complete agency
certified record.
F. ALL LEVELS OF STATE COURT IN SOUTH CAROLINA LACK THE
AUTHORITY TO AUTHORIZE AN EXTENSION TO FILE AN AGENCY RECORD
CERTIFIED BY AN AGENCY OFFICIAL WHEN THE AGENCY (RESPONDENT
DISTRICT) DID NOT REQUEST AN EXTENSION BEFORE THE 30 DAY
PERIOD TO FILE RECORD EXPIRED.
Rule 75 SCRCP and S.C. Code §59-25-480 statute is clear in placing the
responsibility on the administrative agency to file the agency record timely, and
18

\

that any request for an extension of time must be made within the statutory time
period. Given that Cherokee County School District failed to file for an extension to
prepare and certify the record on appeal, Brown could not lawfully have her teacher
termination judicially reviewed to see if there was substantial evidence to terminate
her employment. As a result Brown should have been reinstated to her teaching
position with Cherokee County School District.
G. THE COURT OF APPEALS ERRED IN NOT RULING THAT AN AGENCY’S
(SCHOOL DISTRICT’S) FAILURE TO FILE A COMPLETE AND OFFICIAL
CERTIFIED TRANSCRIPT OF RECORD IN A TEACHER TERMINATION
APPEAL IS TANTAMOUNT TO NO TRANSCRIPT AT ALL HAVING BEEN
FILED BY THE SCHOOL DISTRICT.
Failure of the Cherokee County School District to submit a certified official
record signed by an agency official to authenticate the record and to confirm that
the record contains true and correct copies of the complete record should have been
considered a fatal error by the Supreme Court of South Carolina and the South
Carolina Court of Appeals panel. Brown's due process rights were violated. Brown's
termination should have been reversed.
As state above, this Court should grant the Petition because Brown's due process rights and
equal protection rights were violated. Brown had a right to have all pleadings, motions,
intermediate rulings, depositions, evidence received or considered, a statement of matters
officially noticed, questions and offers of proof, objections, rulings on the cons tested case, and
proposed findings and exceptions filed with the court of common pleas. As previously stated, In
McWhirter vs. Cherokee County School District No. 1, 274 S.C. 66, 261 S.E. 2d 157 (1979),
South Carolina Supreme Court referred to the actions of a local school board in language that
indicates that the board is held to the standards of an "agency" as defined in the APA. See Brown
19

vs. William B. James. Superintendent for Cherokee County School District. 389 S.C. 41, 697
S.E.2d 604 (Ct. App. 2010).
Teachers and African Americans should not be excluded from S.C. Code of Laws
Title 1 Chapter 23 Section 1-23-320 CG). Additionally, Brown was denied due process because
the Clerk's office for Cherokee County Court of Common Pleas states it did not receive a
transcript record of any kind pertaining to Brown's teacher dismissal. Brown is entitled to the
same rights that are afforded to other state employees by SCRCP 75 (South Carolina Rules of
Civil Procedure). Rule 75 (SCRCP75) states in pertinent part, "Upon filing of notice of appeal in
an action the original record shall be certified by the clerk of the inferior court or administrative
agency or tribunal and transmitted within (30) days to the clerk of the court to which the appeal
is taken. Respondent District filed a teacher dismissal transcript for the first time at
the South Carolina Court of Appeals. Respondent District, even then, never
produced a complete certified record for the South Carolina Court of Appeals.
Brown has been denied due process and equal protection when appealing her
teacher termination in the judicial system. Respondent District robbed Brown of all
her due process and equal protection rights in the judicial system.
Further, Respondent District deprived Brown of a property interest in her
continuing teacher contract. Additionally, the Respondent District deprived Brown
of liberty interest through damage to her reputation. Further, since Petitioner was
deprived of her compensation, created through her continuing teacher contract, she
should be allowed to proceed with her due process claim on this basis as well.
Additionally, Brown's "protected liberty interests include the freedom to work and
earn a living, and therefore such interests can be implicated where a plaintiff "was
20

either terminated for a reason which was (i)false, (ii), publicized, and (iii)
stigmatizing to his standing or reputation in his community or

terminated for a

reason that was ©false and (ii) had a stigmatizing effect such that (iii) he was
denied other employment opportunities as a result." See Whiting v. Univ.of S. Miss.
451 F. 3d 339 (5th Cir. 2006) (quoting Cabol v. Town of Youngville. 106 F.32d 101,
107 (5th Cir. 1997) (emphasis added).
Brown was denied the opportunity to have meaningful judicial review of
her teacher termination because Respondent district failed to file a certified
complete Record in the Cherokee County Court of Common Pleas. See Mullane v.
Cent. Hanover Bank & Trust Co. 339 U.S. 306, 313, 70 S.Ct. 652 94 L.Ed;
865(1950).
Additionally, Petitioner believes that the Supreme Court of South
Carolina and the Court of Appeals panel applied a standard of review not
warranted by the facts and law in this case. In this regard Brown believes that it is
understandable that the Supreme Court of South Carolina and the South Carolina
Court of Appeals Panel misconstrued and misapplied its application of Code
§59-25-480 and SCRCP 75 where the Courts did not take the opportunity to discuss
the gaps in S.C, Code §59-25-480. Moreover, Petitioner believes that the Circuit
Court judge was hamstrung by the misrepresentations of the District about whether
the record in the School District was complete and certified by the requisite agency
official as contemplated under S.C. Code §59-25-480 and Rule 75 SCRCP. Petitioner
also believes the District’s legaj counsel was confused and as such committed tjie

21

logical fallacy of equivocation by equating the Transcript of the Teacher Dismissal
Hearing, which transcript was certified by the court reporter, as the complete record
on appeal before the Circuit Court as of December 1, 2015.
The Court of Appeals appears to have overlooked the relationship between
S.C. Code §59-25-480 and SCRCP 75. From precedent it appears that both should
be read together. S.C. Code §59-25-480 provides:
(A) The decision of the district board of trustees is final, unless within
thirty days afterward an appeal is made to the court of common pleas
of any county in which the major portion of such district lies.
(B) Notice of the appeal and the grounds thereof shall be filed with the
district board of trustees. The district board shall, within thirty days
thereafter, file a certified copy of the transcript record with the clerk of
such court. An appeal from the order of the circuit court shall be taken
in the manner provided by the South Carolina Appellate Court Rules.
If the decision of the board is reversed on appeal, on a motion of either
party the trial court shall order reinstatement and shall determine the
amount for which the board shall be liable for actual damages and
court costs. In no event shall any liability extend beyond two years
from the effective date of dismissal. Amounts earned or amounts
earnable with reasonable diligence by the person wrongfully
suspended shall be deducted from any back pay.

SCRCP 75 provides in part:
Appeals to the circuit court shall be made upon the original record in the
lower court or administrative agency or tribunal. Upon filing of notice of appeal in
an action the original record shall be certified by the clerk of the inferior court or
administrative agency or tribunal.
The general proposition under the APA § 1-23-380 is that a party who has
exhausted all administrative remedies available within the agency and who is
aggrieved by a final decision in a contested case is entitled to judicial review
pursuant to this article and Article 1. Judge Geathers goes on to state that all the
22

courts have applied APA standards to certain school board administrative decisions.
See Brown v. James, 389 S.C. 41, 697 S.E.2d 604 (2010).
In the context of school district terminations of teachers, the school district is
looked upon as an agency as defined in the Administrative Procedures Act. See
Brown v. James, 389 S.C. 41, 697 S.E.2d 604 (2010), also see McWhirter v. Cherokee
County School District 1, 274 S.C. 66, 261 S.E.2d 157 (1979). "The observance of
procedural requirements of the Employment and Dismissal Act is mandatory and
not a matter for discretion." Brown v. James, 389 S.C. 41, 697 S.E.2d 604 (Court of
Appeals 2010).
In Brown v. James, the school district prevented Brown from having a due
process hearing. Brown v. James supra. It is noteworthy to state that this is the
same Sharon Brown that is presently before the court.
Here, Brown exhausted her administrative remedies. The district in turn
was duty bound to strictly comply with South Carolina Code § 59-25-480 which by
its own admission, the district did not do. See Brown v. James supra.
The Court of Appeals panel misconstrued and misapplied an erroneous
standard of proof in its finding that there was substantial evidence that the trial
transcript was filed. The Panel and the South Carolina Supreme Court did not
properly apply South Carolina Code § 59-25-480 and Rule 75 SCRCP.
Respectfully, the District did not submit the entire record below. The way
the process should have worked is as follows:

23

1.

Brown files notice of appeal with circuit court and district.

2.

District has 30 days to have an official of the District sign a certified
Record of all the proceedings and documents below.

3.

District then must transmit this Certified Record to the Cherokee
County Clerk of Court’s Office for filing.

4.

District’s transmittal must be more than the just the record of the
hearing below but must include any relevant Certified orders of the
District and the certified vote of the District Board of Trustees.

5.

The Appellant then has a due process hearing before the Circuit Court
applying the substantial evidence standard of proof.

6.

Then a decision and judgment is rendered by the Circuit Court Judge.

What was not done in this case:
7.

The District never presented a certified record from the School District

signed by an official as mandated by Rule 75 SCRCP or S.C. Code 59-25-480.
8.

The transcript of the hearing below was certified by the Court reporter

and not by an agency official.
9.

A certified order was not filed with the Clerk of Court’s Office within

30 days of filing of an appeal by Brown with the Circuit Court;
10.

The vote of the Board of Trustees ratifying Brown’s termination was

not certified within thirty days to the Clerk of Court of Cherokee County as
required by SCRCP 75 and S.C. Code 59-25-480.
Since the School District transmitted what Petitioner states is a
defective and incomplete non-certified “record” to the Circuit Court, the
Circuit Court judge could not properly consider and apply the substantial
evidence standard of proof without running afoul of both due process and
equal protection clauses of both the South Carolina Constitution, the Federal
Constitution and mandatory State Statutes, such as 59-25-480 and Rule 75
of SCRCP (even if Petitioner disregarded the fact that the Clerk of Court
24

Office for Cherokee County Court of Common Pleas states that they never
received a Transcript Record). The Statutory provisions of the Act governing
teacher dismissals are mandatory on all parties.
Since S.C. Code §59-25-480 only deals with part of the transmittal process. It
is clear that the Rule 75 fills in the gaps and list the administrative agency’s clerk,
then if no agency clerk, then some other top official as being charged with certifying
the transmittal of the record from the School board of trustees to the Circuit Court
Clerk. Here legal Counsel for the School Board of Trustees of Cherokee County
gives the impression from her December 1, 2015 letter that she filed a certified
transcript. This hearing transcript was certified by the Court Reporter. However,
Ms. White has not identified any school board official who signed off and certified
the record that was ultimately transmitted to the Clerk of Court of Cherokee
County. Not having done this, due diligence renders the “Record’ before the Circuit
Judge defective and a nullity in terms as to what was ordered in the way of
termination of Brown since no valid order existed before the Circuit Judge.
Filing a defective uncertified record does not excuse the District from filing a
certified record.
Additionally, the District’s legal counsel’s letter to the Court of Appeals
dated November 22, 2017, the School Board’s counsel states that she filed the
Transcript of record on December 3, 2015 which is a different date than what she
represented in her letter dated December 1, 2015. Additionally, the School Board
claims that the only record they submitted to the Cherokee County Clerk of Court

25

was the Transcript of the Hearing below that was typed by the court reporter. This
is significant because Judge Hayes only considered the following:
“After reviewing the transcript of the School board’s hearing and the exhibits
presented as a part of the hearing’s record, reviewing the pleadings and briefs in
the Clerk of Court’s file, considering the arguments presented by counsel, and
applying the required standard of review, the School Board’s decision is affirmed.”
R. p. 2.
As has been adverted to Rule 75, states in pertinent part, appeals to the
Circuit Court shall be made upon the original record in the lower court or
administrative agency or tribunal. Upon filing of notice of appeal in an action, the
original record shall be certified by the clerk of the inferior court, or administrative
agency or tribunal and transmitted within 30 days to the clerk of court to which the
appeal is taken. If the lower court, agency or tribunal has no clerk, then the
original record shall be certified and transmitted by the judge or chief official of the
lower court, agency or tribunal. (Emphasis added).
In this case, we have not been provided with the name of the person who
properly certified the record from the School Board of Trustees of Cherokee County
to be transmitted to the Cherokee County Clerk of Court within the thirty (30)
requirement under both the Statute and the Rule 75. Moreover, the Court reporter
does not appear to be listed in either S.C. Code §59-25-480 or Rule 75 of the SCRCP.
Respectfully, the Panel’s finding that the District “ ...has provided
substantial evidence that it did file a transcript of the board hearing” with respect
to the mandatory certification is questionable with regard to the confused dates on
the District about when the transcript of the hearing was filed and a lack of a

26

named certifying official of the Record before Judge Hayes. Also, the Panel’s
reasoning does not comport with the plain language of either the Statute of S.C.
Code 59-25-480 or Rule 75 SCRCP.
Additionally, the Supreme Court of South Carolina and the Court of Appeals
appears to be confused about the issue as to who certifies the record below and what
is to be included in the record. Clearly, the transcript and the exhibits from the
Court reporter were insufficient. It follows that the School District had the burden
to provide the lower court judge with the decision and order of the School District
within the 30 days contemplated by both the Statute of S.C. Code §59-25-480 and
Rule 75 of the SCRCP.
It is axiomatic that Brown’s due process rights were violated by this oversight
by the Supreme Court of South Carolina and the Court of Appeals which is
understandable due to the misrepresentations made by the District to the Clerk of
Court, Brown’s legal Counsel and the Court of Appeals concerning the certification
issue and the District’s mischaracterization of what it filed or didn’t filed in the
Cherokee County Clerk of Court’s Office.
To reiterate, from the record below, it does not appear that the school board
and/or its agents, servants and/or employees complied with Rule 75 of the South
Carolina Rules of Civil Procedure because it does not appear that the record below
was certified to the circuit court by the administrative agency itself. And it does not
appear, we Relieve, that Ms. White on behalf of the school district has submitted a

27

certified record to the circuit court. If so, then please show us who signed and
where it has been submitted.
Clearly then, the Cherokee County School District did not comply with
59-25-480 and/or Rule 75 of the South Carolina Rules of Civil Procedure. It is
stated in Vansant v. Smith that Rule 74 and 75 make uniform the procedure on
appeals to the circuit court where there is no provision by statute or do not replace
any provision in Title 18 relating to such appeals in other statutes. Clearly, Rule 75
must be read with 59-25-480 in order to deal with the issue of transmittal of the
record below.
In its Brief to the South Carolina Court of Appeals, the District states that
"The District has presented evidence to this Court that it filed the transcript. In its
return filed with this Court on November 27, 2017, the District responded to
Appellant’s designation of matters to be included in the record on appeal to ask the
Court of Appeals to include a transcript of the teacher dismissal hearing. In that
return, the District included as Exhibit A its counsel's letter to the Honorable
Brandy McBee, Cherokee County Clerk of Court, dated December 1, 2015, "enclosed
for filing the transcript of Brown's teacher's dismissal hearing in accordance with
the requirements of South Carolina Code Annotated § 59-25-480." Brown's counsel
was copied on the December 1, 2015 letter. In that return the district states, "As
further evidence the District filed a transcript, and that it was received by the lower
court, Circuit Court Judge J. Mark Hayes cites to the transcript in his order
upholding the Board's decision, demonstrating that the transcript was in fact filed.
Had the transcript not been filed, Judge Hayes could not have reviewed it." The
District also states, assuming arguendo that the clerk of court did not receive the
transcript, the appropriate relief is not Brown's reinstatement. Once Brown was
informed, through her counsel's discussion with the Cherokee County Court of
Common Pleas' clerk on October 30, 2017, that the clerk had not received the
transcript, Brown was on notice that there was a possible question over the filing of

28

the transcript. As such, Brown should have remedied the matter by pursuing the
appropriate writ of mandamus, which she did not do.”
Please note in the Transcript of the Teacher Dismissal Hearing there was no
order filed with it. Supplemental Record p. 442.
The Supreme Court of South Carolina and the South Carolina Court of
appeals cannot relax the rules to suit the District’s failure to comply with the clear
commands of the Employment and Dismissal Act S.C. Ann.§ 59-25-410, 59-25-480
and SCRCP 75 (Rule 75), as well as S.C. Code of Laws, Title 1 Chapter 23 Section
1-23-320 (G).

i

Since the District chose what record to submit/allegedly submit and that
record being defective on its face, reversal of the Circuit Judge and School Board’s
decision is mandated because it is impossible to apply the substantial evidence
standard of proof to the facts in the Transcript of the hearing without a certified
decision from the District and a complete record from the Respondent District. As
such the lower courts' decisions should be reversed and Brown must be reinstated
to her former teaching position.

29

CONCLUSION
This prejudice the Petitioner in so many ways. As such, Petitioner requests
that the Circuit Court, the Court of Appeal’s decision, and the Supreme Court of
South Carolina decisions be reversed and that Brown be ordered reinstated to her
job as a school teacher. A job she is well qualified to serve in.

y37\ ttAATr^
^Sharon Brown
216 Ardmore Drive
Spartanburg, S.C. 29306
(864)253-9975
sharon.brown21@yahoo.com
Spartanburg, South Carolina
Dated: August 24, 2021

30

